Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

                            Actions Needed To
For Release on Delivery
Expected at
2:00 p.m. EDT
Wednesday
September 26, 2007          Improve Airline
                            Customer Service and
CC-2007-099



                            Minimize Long, On-Board
                            Delays

                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We are pleased to be here today to discuss airline customer service issues and the
actions needed from the Department of Transportation (DOT), Federal Aviation
Administration (FAA), airlines, and airports to minimize long, on-board delays. This
hearing is both timely and important given the record-breaking flight delays,
cancellations, diversions, and on-board tarmac delays that air travelers have already
experienced this year. Based on the first 7 months of the year:
    • Nearly 28 percent of flights were delayed, cancelled, or diverted—with airlines’
      on-time performance at the lowest percentage (72 percent) recorded in the last
      10 years.

    • Not only are there more delays, but also longer delay periods. Of those flights
      arriving late, passengers experienced a record-breaking average flight arrival delay
      of 57 minutes, up nearly 3 minutes from 2006.

    • More than 54,000 flights affecting nearly 3.7 million passengers experienced
      taxi-in and taxi-out times of 1 to 5 hours or more. This is an increase of nearly
      42 percent as compared to the same period in 2006.

As you know, Secretary Peters has expressed serious concerns about the airlines’
treatment of passengers during extended ground delays. Earlier this year, she
requested that we examine the specific incidents involving American Airlines
(American) and JetBlue Airways (JetBlue), during which passengers were stranded on
board aircraft for extended periods of time, and the Air Transport Association’s 1
member-airlines’ 2 contingency plans for dealing with long, on-board delays. She also
requested that we highlight industry best practices that can help to mitigate these
situations and provide recommendations on what actions should be taken to prevent a
recurrence of such events. We issued our report yesterday, 3 which included a series
of recommendations the Department can take to improve airline customer service.

Today, I would like to discuss four key points on actions that would help to improve
airline customer service and minimize long, on-board delays. These points are based
on the results of our recent review as well as our previous airline customer service
reviews.



1
    The Air Transport Association is the trade association for America’s largest air carriers. Its members transport over
    90 percent of all the passenger and cargo traffic in the United States.
2
    Alaska Airlines, Aloha Airlines, American Airlines, ATA Airlines, Continental Airlines, Delta Air Lines, Hawaiian
    Airlines, JetBlue Airways, Midwest Airlines, Northwest Airlines, Southwest Airlines, United Airlines, and US Airways.
    During our review, ATA Airlines terminated its membership in ATA.
3
    OIG Report Number AV-2007-077 “Actions Needed To Minimize Long, On-Board Delays,” September 25, 2007. OIG
    reports and testimonies are available on our website: www.oig.dot.gov.


                                                                                                                       1
    • The airlines should specify in detail their policies and plans to minimize long,
      on-board delays and off-load passengers within certain periods of time and
      adhere to such policies. The American and JetBlue events of December 29, 2006,
      and February 14, 2007, respectively, underscored the importance of improving
      customer service for passengers who are stranded on board aircraft for extended
      periods of time. On those dates, thousands of passengers experienced long,
      on-board delays, in some cases for over 9 hours, with little more than a snack and
      beverage for the entire time. However, the events were neither isolated incidents
      nor limited to American and JetBlue; these delays occurred throughout the system
      and at many airlines.

      Although severe weather was the primary cause of the delays, it was not the only
      factor—neither airline had a system-wide policy and procedure in place to
      mitigate long, on-board delays and off-load passengers within a certain period of
      time. In fact, prior to the American and JetBlue incidents, only a few airlines
      reviewed had an established time limit on the duration of tarmac delays, as we
      reported in our 2001 review. 4 Since these incidents, eight airlines have now set a
      time limit on delay durations before deplaning passengers but five still have not.

      We still maintain that all airlines’ customer service plans should specify in detail
      the efforts that will be made to get passengers off aircraft that are delayed for long
      periods, either before departure or after arrival. Airlines should also incorporate
      these policies in their contracts of carriage and post them on their Internet sites.
      To ensure adherence to the policies, airlines must resume efforts to self-audit their
      customer service plans. We recommended most of these actions in our 2001
      report, and the airlines agreed and stated plans to implement them.

    • Airports’ operators should become more involved in contingency planning
      for extraordinary flight disruptions. Our examination of 13 airports’ 5
      contingency plans found that only 2 airports have a process for monitoring and
      mitigating long, on-board delays. This involves contacting the airline to request a
      plan of action after an aircraft has remained for 2 hours on the tarmac. We also
      found that all airports intervene only upon an airline’s request primarily because
      they do not have the authority to interfere with a carrier’s operations during long,
      on-board delays.

      In our opinion, airport operators need to become more involved in contingency
      planning for extraordinary flight disruptions, including long, on-board delays
      during extreme weather or any other disruptive event. Airports are public

4
    OIG Report Number AV-2001-020, “Final Report on Airline Customer Service Commitment,” February 12, 2001.
5
    Austin-Bergstrom International, Chicago O’Hare International, Dallas/Fort Worth International, Dallas Love Field,
    General Mitchell International, George H. Bush Intercontinental, Hartsfield-Jackson Atlanta International, Honolulu
    International, Indianapolis International, John F. Kennedy International, Minneapolis-St. Paul International, Phoenix Sky
    Harbor International, and Seattle-Tacoma International.


                                                                                                                           2
      agencies heavily supported by public funding and should ensure that passengers’
      essential needs are met and prevent long, on-board delays to the extent possible.
      As recipients of Federal funds for airport improvement projects, airports have an
      obligation to increase airport efficiency, decrease delays, and transport passengers
      in the most efficient manner.

      Therefore, large- and medium-hub 6 airport operators should establish a process for
      monitoring and mitigating long, on-board delays that involves contacting the
      airline to request a plan of action after an aircraft has remained for 2 hours on the
      tarmac. Absent any airline policy, the airport operators should work with airlines
      to establish policies for deplaning passengers and ensure that these policies are
      adhered to.

    • There are best practices and ongoing initiatives that, if properly executed,
      should help to mitigate long, on-board delays in the immediate term.
      Secretary Peters asked that we highlight some of the best practices we found that
      could help in dealing with long, on-board delays. During our review of selected
      airlines and airports, we found several practices that airlines and airports are
      taking to mitigate the effects of these occurrences. These include:

        - setting the maximum amount of time that passengers will remain on-board
          aircraft before deplaning.
        - “intelligent cancelling”—cancelling flights most likely to be affected by the
          weather event without being too optimistic or pessimistic. Pre-cancelling
          flights before the passengers leave home keeps them away from the airport,
          thus reducing congestion.
        - keeping gate space available for off-loading passengers in times of irregular
          operations.

      The best practices we identified during our review are not all inclusive, and the
      airlines or airports should consider incorporating them into their ongoing
      operations, especially the best practice of setting the maximum amount of time
      that passengers will remain on-board aircraft before deplaning.

      However, in our opinion, a more comprehensive plan of action is needed to
      prevent and mitigate long, on-board delays and should involve collaboration
      among airlines, airports, FAA, and DOT. Therefore, a national task force of
      representatives from each of these groups should be established to develop and
      coordinate contingency plans to deal with lengthy delays. Although the airlines

6
    FAA defines (1) large hubs as those airports that each account for at least 1 percent of the total U.S. passenger
    enplanements and (2) medium hubs as those airports that each account for between .025 percent and 1 percent of the total
    passenger enplanements. Large-hub airports (30 in total) account for 69 percent of all passenger enplanements, while
    medium-hub airports (37 in total) account for 20 percent of all enplanements.


                                                                                                                          3
 formed a task force in response to our 2001 report recommendations, the effort
 never materialized as priorities shifted after September 11, 2001. Now is the time
 to reconvene the task force.

 Also, after our review began, some airports moved forward with other initiatives
 meant to assist the airlines in dealing with long, on-board delays. For example,
 the Port Authority of New York and New Jersey set up a task force to find ways to
 reduce flight delays at the region’s three main airports: John F. Kennedy (JFK),
 LaGuardia, and Newark Liberty International Airports. The task force is
 addressing two main areas—technical issues and customer service. In the
 technical area, the Port Authority and FAA are working on procedural
 improvements, such as more efficient use of the runways at JFK. In the customer
 service area, the focus is on identifying best methods for getting passengers off
 aircraft and enhancements for reducing the amount of time passengers are kept on
 aircraft.

 FAA is also taking action to minimize delays; the Agency expanded an existing
 initiative this summer to other parts of the National Airspace System to reduce the
 amount of time that flights sit on tarmacs waiting to depart. This initiative, known
 as the Airspace Flow Program, gives FAA and the airlines the capability to
 maximize the overall use of the National Airspace System while minimizing
 delays and congestion. These efforts, which are managed by FAA’s Command
 Center, do not create additional capacity but limit the negative effects of bad
 weather.

• DOT, FAA, airlines, and airports should complete actions immediately on
  outstanding recommendations—some dating back to 2001—to improve
  airline customer service and minimize long, on-board delays. Given the events
  of this past winter, DOT should take a more active role in overseeing customer
  service issues involving long, on-board delays, and there are actions that the
  Department, the airlines, airports, and FAA can undertake immediately to do so.
  Many of the actions are not new and date back to recommendations in 2001 on
  airline customer service, which were directed at delay and cancellation problems.
  To improve the accountability, enforcement, and protection afforded to air
  travelers we recommend, among other things, that:

   - DOT conduct incident investigations involving long, on-board delays;
   - DOT oversee the airlines’ policies for dealing with long, on-board delays;
   - airlines define what constitutes an “extended period of time” for meeting
     passengers’ essential needs and set time limits for delay durations;
   - airlines establish specific targets for reducing chronically delayed or cancelled
     flights;


                                                                                    4
        - airlines disclose on-time flight performance;
        - airlines resume efforts to self-audit their customer service plans; and
        - large- and medium-hub airport operators establish and implement processes for
          monitoring lengthy delays.

Mr. Chairman, in addition to the steps I have just outlined, it is imperative that FAA
keeps its short-term capacity measures on track. This is particularly important given
that the development and implementation of the Next Generation Air Transportation
System is a long-term undertaking. Key short-term initiatives include new airfield
runway projects at six airports (including projects at Washington Dulles and Chicago
O’Hare), new routes and procedures that can reduce flight times, and airspace
redesign efforts. History shows that airspace changes are vital for realizing benefits
from new runway projects and can enhance the flow of air travel even without new
airport infrastructure.

Before I discuss these key points in detail, I would like to briefly describe why airline
customer service is again a central issue and highlight a few statistics showing how air
travelers are affected by delays and cancellations.

Airlines Agreed To Execute a Voluntary Airline Customer Service
Commitment
As this subcommittee is aware, accommodating passengers during long, on-board
delays is a major customer service challenge that airlines face. However, this is not a
new problem for the airlines. Airline customer service first took center stage in
January 1999, when hundreds of
passengers remained in planes on         Figure 1. Provisions of the Airline Customer
snowbound Detroit runways for up • Offer the lowest Service          Commitment
                                                         fare available.
to 8 and a half hours. After those • Notify customers of known delays, cancellations, and diversions.
events, both the House and Senate • Deliver baggage on time.
considered whether to enact a •• Support         an increase in the baggage liability limit.
                                         Allow reservations to be held or cancelled.
“passenger bill of rights.”            • Provide prompt ticket refunds.
                                                        • Properly accommodate disabled and special-needs passengers.
Following congressional hearings                        • Meet customers’ essential needs during long, on-aircraft delays.
                                                        • Handle “bumped” passengers with fairness and consistency.
on these issues, ATA member                             • Disclose travel itinerary, cancellation policies, frequent flyer
airlines agreed to execute a                              rules, and aircraft configuration.
                                                        • Ensure good customer service from code-share partners.
voluntary Airline Customer Service                      • Be more responsive to customer complaints.
Commitment 7 to demonstrate their
                                                        Source: Airline Customer Service Commitment, June 1999
dedication to improving air travel
(see figure 1). The Commitment

7
    ATA signed the Commitment on behalf of the then 14 ATA member airlines (Alaska Airlines, Aloha Airlines, American
    Airlines, American Trans Air, America West Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines, Midwest
    Express Airlines, Northwest Airlines, Southwest Airlines, Trans World Airlines, United Airlines, and US Airways).


                                                                                                                         5
provisions include meeting passengers’ essential needs during long, on-board delays.

Because aviation delays and cancellations continued to worsen, eventually reaching
their peak during the summer of 2000, Congress directed our office to evaluate the
effectiveness of the Commitment and the customer service plans of individual ATA
airlines. We issued our final report in February 2001. Overall, we found that the
ATA airlines were making progress toward meeting the Commitment, which has
benefited air travelers in a number of important areas, such as offering the lowest fare
available, holding reservations, and responding in a timely manner to complaints.
However, these areas are not directly related to flight delays or cancellations—which
the Commitment did not directly address—and these areas are still the underlying
causes of deep-seated customer dissatisfaction.

Rising Flight Delays Are Leading to More Long, On-Board Delays
A review of vital statistics shows the impact that flight delays and cancellations had
on air travelers during 2006 and the first 7 months of 2007, compared to peak-year
2000. The 2006 travel period was not only the busiest 8 since 2000, it also reached
near-record 2000 levels for flight delays and cancellations. Domestic-wide for 2006,
nearly 25 percent of flights were delayed, cancelled, or diverted, the highest
percentage since the year 2000, when it hit 27 percent. Based on the first 7 months of
2007, airlines’ on-time performance was at the lowest percentage (72 percent)
recorded in the last 10 years; nearly 28 percent of flights were delayed, cancelled, or
diverted compared to nearly 24 percent during the same period in 2006.

Figure 2 illustrates the changes in percent of flights delayed, cancelled, or diverted
from 2000 to 2007.

                                    Figure 2. Percent of Flights Delayed, Cancelled,                                      Figure 3. Average Length of Arrival Delays
                                          or Diverted for Years 2000 to 2007                                                        for Years 2000 to 2007

                                   30%   27.4%                                                   27.8%               60                                                    56.7
                                                                                                                          52.5                                      54.0
                                                                                                                                                             52.2
    Percent of Scheduled Flights




                                                                                                                                                      51.4
                                                                                         24.6%                                   49.2          48.9
                                   25%                                           22.6%                                                  46.8
                                                 22.6%                   21.9%
                                                                                                                     45
                                   20%                   17.9%   18.0%
                                                                                                           Minutes




                                   15%                                                                               30


                                   10%
                                                                                                                     15
                                   5%


                                   0%                                                                                 0
                                         2000    2001    2002    2003    2004    2005    2006    2007*                    2000   2001   2002   2003   2004   2005   2006   2007*




*January through July                                                                                    *January through July
Source: BTS data                                                                                         Source: BTS data




8
    As measured by scheduled departures.


                                                                                                                                                                                   6
Not only are there more delays, but also longer delay durations. Domestic-wide for
2006, for those domestic flights delayed, passengers experienced an average flight
arrival delay of 54 minutes. Figure 3 illustrates the average flight arrival times from
2000 to 2007. Based on the first 7 months of data, it is clear 2007 could be even
worse. For flights that arrived late, passengers experienced an average flight delay of
nearly 57 minutes, up nearly 3 minutes from FY 2006.

These rising flight delays are leading to more on-board tarmac delays. Based on the
first 7 months of 2007, over 54,000 scheduled flights—affecting nearly 3.7 million
passengers—experienced taxi-in and taxi-out times of 1 to 5 hours or more. This is an
increase of nearly 42 percent (from 38,076 to 54,029) as compared to the same period
in 2006 (see table).
   Table. Number of Flights With Long, On-Board Tarmac Delays of 1 to 5+ Hours
                     January Through July of 2006 and 2007

                    Time Period              2006          2007     % Change

                      1-2 Hrs.             33,438          47,558     42.23
                      2-3 Hrs.              3,781           5,213     37.87
                      3-4 Hrs.               710            1,025     44.37
                      4-5 Hrs.               120             189      57.50
                     5 or > Hrs.              27             44       62.96
                       Total:              38,076          54,029     41.90
                  Source: OIG analysis based on BTS data

Rising Flight Delays Are Also Leading to More Air Traveler Complaints
Against this backdrop of increasing delays and cancellations, consumer complaints
are also rising. DOT’s Air Travel
Consumer Reports disclosed that, for                 Figure 4. Air Travel Consumer
the first 7 months of 2007, complaints                        Complaints, 2006
involving U.S. airlines increased nearly                       Others
                                                                             Flight
65 percent (3,947 to 6,504) over                     Disability 12%
                                                                            Problems
complaints during the same period in                    6%
                                                                              29%
2006, with complaints relating to flight            Refunds
                                                       7%
problems (delays, cancellations, and
                                                 Reservations
missed connections) more than                    Ticketing &
doubling (1,096 to 2,468) for the same            Boarding
                                                               Customer   Baggage
period. Complaints involving U.S.                   11%                     22%
                                                                 Care
airlines in 2007 have already exceeded                           13%
                                         Source: DOT’s Air Travel Consumer Reports for 2006
2006 complaint totals, including
complaints about flight problems.




                                                                                         7
Over the last several years, DOT ranked flight problems as the number one air
traveler complaint, with baggage complaints and customer care 9 ranked as number
two and number three, respectively. As shown in figure 4, flight problems accounted
for more than one-quarter of all complaints the Department received in 2006. So far,
this year is becoming a near record-breaking year percentage-wise for flight problem
complaints, with those accounting for nearly 38 percent of all complaints the
Department received in the first 7 months of 2007.

Passengers’ Flight Experiences Are Further Complicated by Capacity
and Demand Matters
Air travelers’ dissatisfaction with flight problems, especially cancellations, is further
compounded by reduced capacity and increased demand, which leads to fuller flights.
Domestic-wide, the first 6 months of 2007 (the most recent data available) compared
to the same period in peak-year 2000 show that:

    • The number of scheduled flights (capacity) decreased from 5.5 million in 2000 to
      5.0 million in 2007, a drop of 9 percent. Scheduled seats also declined by over
      9 percent between 2000 and 2007, from 510 million to 462 million.

    • Even though the number of flights and seats declined, passenger enplanements
      went up over 12 percent, from 312 million passengers in 2000 to 350 million
      passengers in 2007.

    • Reduced capacity and increased demand led to fuller flights. For 2007, average
      load factors increased from 71.1 percent in 2000 to 79.7 percent in 2007, with an
      unprecedented 86.1 percent in June.

    • Reduced capacity and higher load factors can also result in increased passenger
      inconvenience and dissatisfaction with customer service. With more seats filled,
      air carriers have fewer options to accommodate passengers from cancelled flights.

The extent to which delays and cancellations will continue to impact passengers in
2007 depends on several key factors, including weather conditions, the impact of the
economy on air traffic demand, and existing capacity management at already
congested airports.

I would now like to turn to my key points on actions needed to improve airline
customer service and minimize long, on-board delays.




9
    Complaints such as poor employee attitude, refusal to provide assistance, unsatisfactory seating, and unsatisfactory food
    service are categorized as customer care complaints.


                                                                                                                           8
The Airlines Must Specify in Detail Their Policies and Plans
To Minimize Long, On-Board Delays and Off-Load
Passengers Within Certain Periods of Time and Adhere to
Such Policies
The airlines continue to face challenges in mitigating extraordinary flight disruptions
such as long, on-board delays during extreme weather. Based on Bureau of
Transportation Statistics (BTS) data, 659,988 flights were delayed in 2006 due to
poor weather conditions (9.2 percent of all commercial flights). Based on the first
7 months of 2007, the number of flights delayed due to poor weather conditions
increased by nearly 18 percent for the same period in 2006 and is on pace to exceed
2006 totals.

The severity of the on-board delays last winter drew national attention, and the events
that received the most attention—the American and JetBlue incidents—underscored
the importance of improving customer service for passengers who are stranded on
board aircraft for extended periods of time.

On December 29, 2006, American’s operations at Dallas-Fort Worth International
Airport (DFW) were severely affected by unprecedented weather leading to 654 flight
cancellations, 124 diversions, and 44 long on-board delays exceeding 4 hours. The
diversions to Austin-Bergstrom International Airport generated substantial interest
because some of the lengthiest on-board delays occurred at that airport—in one case
for over 9 hours. JetBlue’s JFK operations also suffered on February 14, 2007, when
severe weather hit the northeastern United States, leading to 355 cancellations;
6 diversions; and 26 long, on-board delays exceeding 4 hours.

We also found that other airlines experienced flight disruptions on those two dates;
some were able to minimize the time passengers spent on-board aircraft while others
experienced similar on-board delays. For example, Delta Airlines had more flights
delayed at JFK than JetBlue on February 14, 2007, with a total of 54 flights delayed
more than 1 hour versus 43 for JetBlue.

Lack of a System-Wide Policy Contributed to American’s and JetBlue’s
Long, On-Board Delays
While weather was the primary contributor to the extraordinary flight disruptions, it
was not the only factor in passengers being stranded on board aircraft for extended
periods of time. We found that neither airline had a system-wide policy or procedure
in place to mitigate long, on-board delays and off-load passengers within a certain
period of time. American also did not control the number of diverted flights to some
airports, which overwhelmed its operations at Austin.

JetBlue was committed to its long-standing practice of not cancelling flights. As a
result, its personnel at JFK airport became overwhelmed with the sheer number of

                                                                                     9
arriving and departing aircraft on the ground at the same time, with no gates available
for deplaning passengers on arriving flights.

After the December 29 event, American instituted a new policy designed to prevent
on-board delays from exceeding 4 hours and implemented an airborne diversion
distribution plan aimed at spreading out its diversions to more airports to prevent
overloading any given airport. American has also implemented decision assistance
technology designed to “automatically track and monitor delayed and diverted flights
and assist in creating a centralized approach for the prioritizing the handling of such
flights.”

JetBlue also set a time limit for any long, on-board delay away from a gate—a 5-hour
maximum—and established procedures to monitor delayed flights. Also, just a week
after the February 14 incident, JetBlue published its own customer bill of rights.
JetBlue plans to offer compensation in the form of vouchers for flight disruptions,
such as cancellations.

Contingency Planning for Extreme Weather Is Not a New Concern for
Airlines
Contingency planning for extreme weather is not a new concern for airlines, as
evidenced by the June 1999 Commitment provision, which states that:

 • The airlines will make every reasonable effort to provide food, water, restroom
   facilities, and access to medical treatment for passengers aboard an aircraft that is
   on the ground for an extended period of time without access to the terminal, as
   consistent with passenger and employee safety and security concerns.

 • Each carrier will prepare contingency plans to address such circumstances and will
   work with carriers and the airport to share facilities and make gates available in an
   emergency.

However, as we noted in our 2001 report, the airlines had not clearly and consistently
defined terms in the Commitment provision such as “an extended period of time.”
We also noted that only a few airlines’ contingency plans specify in any detail the
efforts that will be made to get passengers off the aircraft when delayed for extended
periods, either before departure or after arrival. Our opinion was then, as it is now,
that this should be a top-priority area for the airlines when implementing their
contingency plans, especially with the record-breaking on-board delays we have
already seen in 2007—particularly those exceeding 4 hours.




                                                                                     10
We recommended that the airlines:

     • clarify, in their customer service plans, what is meant by an “extended period of
       time” and “emergency,” so that passengers will know what they can expect during
       extended on-aircraft delays.

     • ensure that comprehensive customer service contingency plans specify the efforts
       that will be made to get passengers off the aircraft when delayed for extended
       periods, either before departure or after arrival.

In response to our 2001 report recommendations, the airlines agreed to:

     • clarify the terminology used in their customer service plans for extended delays.

     • establish a task force to coordinate and develop contingency plans with local
       airports and FAA to deal with lengthy delays.

While a task force was formed, the effort never materialized as priorities shifted after
September 11, 2001. Our testimony before this subcommittee in April 2007 10
recommended that the task force be reconvened, and, to date, there has been no action
to do so.

Airline Contingency Plans Are Still Not Adequate To Handle Long,
On-Board Delays
Our recent review examined the actions taken by each airline to clarify terms relating
to customers’ essential needs during long, on-board delays and found the following:

     • Five of the 13 airlines still had not clearly and consistently defined terms in the
       Commitment provision, such as “an extended period of time” for meeting
       customers’ essential needs during long, on-board delays.

     • Of the eight airlines that have defined “an extended period of time,” the trigger
       thresholds for meeting passengers’ essential needs vary from 1 to 3 hours. We
       think it is unlikely that passengers’ definition of an extended period of time will
       vary depending upon which airline they are flying. A consistent policy across the
       airlines would be helpful to passengers.

Also, 8 of the 13 airlines have now set a time limit on delay durations before
deplaning passengers but 5 still have not.

Given the extended ground delays that stranded passengers on board aircraft this past
winter, all airlines should specify in detail the efforts that will be made to get


10
     OIG Testimony Number CC-2007-046, “Actions Needed To Improve Airline Customer Service,” April 20, 2007.


                                                                                                               11
passengers off the aircraft when delayed for extended periods, either before departure
or after arrival.

Airlines Must Resume Efforts To Self-Audit Their Customer Service
Plans
In our 2001 report, we recommended, and the ATA airlines agreed, that the airlines
establish quality assurance and performance measurement systems and conduct
internal audits to measure compliance with the Commitment provisions and customer
service plans.

In June 2001, we confirmed that 12 of the 14 ATA airlines that were signatories to the
Commitment had established and implemented their quality assurance and
performance measurement systems. In our 2006 review,11 however, we found that the
quality assurance and performance measurement systems were being implemented at
just five of the ATA airlines. The other ATA airlines had either discontinued their
systems after September 11, 2001, or combined them with operations or financial
performance reviews where the Commitment provisions were overshadowed by those
issues.

The key to the success of the airlines’ new policies designed to prevent long, on-board
delays is for each airline to (1) have a credible tracking system for compliance with its
new policy and with all other Commitment provisions and (2) implement its customer
service plan, reinforcing it with performance goals and measures.

These systems and audit procedures will also help DOT to more efficiently review the
airlines’ compliance with the Commitment provisions and ensure that airlines comply
with their policies governing long, on-board delays, especially in the event that health
and safety hazards arise from such delays.

Airport Operators Must Become More Involved in
Contingency Planning for Extraordinary Flight Disruptions
In addition to examining airline contingency plans for mitigating long, on-board
delays as requested, we also examined contingency plans from selected major airports
nationwide. We requested contingency plans from 13 airports (including 12 hub
airports). We received plans or responses from the 13 airports and found the
following:

     • Only two airports have a process for monitoring and mitigating long, on-board
       delays that involves contacting the airline to request a plan of action after an
       aircraft has remained on the tarmac for 2 hours.


11
     OIG Report Number AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
     Provisions of the Airline Customer Service Commitment,” November 21, 2006.


                                                                                                        12
 • Airports intervene only upon an airline’s request primarily because they do not
   have the authority to interfere with a carrier’s operations during long, on-board
   delays.

 • Most plans address assisting airlines, when assistance is requested, during long,
   on-board delays. This includes providing gates for deplaning passengers or, when
   a gate is not available; deplaning passengers using mobile air stairs; loading
   passengers onto buses; and returning to the terminal.

Based on discussions with airport, airline, and FAA personnel, it appears that in the
recent incidents that stranded passengers for extraordinarily long periods, there was
not a coordinated effort by the airlines, airport operators, and FAA to deal with such
events.

In our opinion, airport operators need to become more involved in contingency
planning for extraordinary flight disruptions, including long, on-board delays during
extreme weather or any other disruptive event. Airports are public agencies heavily
supported by public funding and should ensure that passengers’ essential needs are
met and prevent long, on-board delays to the extent possible. As recipients of Federal
funds for airport improvement projects, airports have an obligation to increase airport
efficiency, decrease delays, and transport passengers in the most efficient manner.

Also, air travelers can still choose which connecting airport to fly through to get to
their final destinations or take direct flights to avoid chronically delayed airports all
together. If certain airports continue to maintain a reputation for long flight and
tarmac delays, passengers may simply choose other airports whenever possible.

In our view, large- and medium-hub airport operators should establish and implement
a process for monitoring and mitigating long, on-board delays that involves contacting
the airline to request a plan of action after an aircraft has remained for 2 hours on the
tarmac. Absent any airline policy, the airport operators should work with airlines to
establish policies for deplaning passengers and ensure that these policies are adhered
to.

There Are Best Practices and Ongoing Initiatives That, if
Properly Executed, Should Help in Mitigating Long,
On-Board Delays in the Immediate Term
Secretary Peters asked that we highlight some of the best practices we found that
could help in dealing with long, on-board delays. During our review of selected
airlines and airports, we found several practices by some airlines and airports to
mitigate the effects of these occurrences. Also, after our review began, some airports
moved forward with other initiatives meant to assist the airlines in dealing with long,
on-board delays. In addition, ATA announced on February 22, 2007, a new initiative


                                                                                      13
for dealing with such situations. FAA also expanded an existing initiative this
summer to other parts of the National Airspace System to reduce the amount of time
that flights sit on tarmacs waiting to depart. We have included these actions along
with best practices identified during our review to provide an overall picture of the
actions being taken across the industry that relate to the Secretary’s concerns.

While it is too soon to evaluate the effectiveness of these ongoing initiatives, they all
have merit and, if properly executed, should help in mitigating long, on-board delays
in the immediate term.

Airlines’ and Airports’ Best Practices and Ongoing Initiatives
Best Practices: The best practices we identified during our review are not all
inclusive, and the airlines or airports should consider incorporating them into their
ongoing operations, especially the best practice of setting the maximum amount of
time that passengers will remain on-board aircraft before deplaning. However, in our
opinion, a more comprehensive national plan of action is needed to prevent and
mitigate long, on-board delays, which should involve collaboration and coordination
among the airlines, airports, FAA, and DOT. These practices include the following:

 • Setting the maximum amount of time that passengers will remain on-board aircraft
   before deplaning them. For example, an airline at one airport it services has a
   1-hour policy that was executed effectively during the December 29, 2006,
   incidents.

 • “Intelligent cancelling”—cancelling flights most likely to be affected by the
   weather event without being too optimistic or pessimistic. Pre-cancelling flights
   before the passengers leave home keeps them away from the airport, thus reducing
   passenger congestion at the airlines’ check-in counters and gate areas. There are
   trade-offs when implementing this practice—passengers avoid experiencing long,
   on-board delays, but they need to be re-accommodated on later flights, preferably
   that same day. However, reduced capacity and higher load factors can result in
   increased passenger inconvenience and dissatisfaction with customer service.
   With more seats filled, air carriers have fewer options to accommodate passengers
   from cancelled flights.

 • Keeping gate space available for off-loading passengers in times of irregular
   operations. This could be done by the airport authority or the carriers. The gate
   would be available for arrival aircraft and used solely for deplaning passengers.

 • Implementing programs that provide volunteers from throughout the airline’s
   system that are flown or driven to the destination needing assistance. These
   volunteers (i.e., customer service agents) act as additional help during irregular
   operations. The goal of the agents would be to separate and service passengers



                                                                                      14
   needing to be rebooked from those passengers arriving at the airport already
   ticketed for on-time flights or non-cancelled, operating flights.

 • Implementing flexible staffing arrangements and periodic duty rotations to meet
   the challenges during irregular operations. For example, certain non-customer
   service employees have been cross-trained to assist in re-booking passengers
   whose flights have been cancelled.

 • Holding teleconferences before a known weather event (e.g., winter storm,
   hurricane, tropical depression, etc.) with possibly affected airports’ general
   managers. In addition to asking for recommendations from the general managers,
   they discuss the status of snow removal equipment, liquid de-icing amounts and
   availability, staffing, and possible scheduled operation (aircraft and passenger)
   reductions. Similar meetings are already held between FAA and airlines.

 • Using the Aircraft Communication Addressing and Reporting System (equipped
   on most commercial aircraft) to send a message to the airlines’ Operations Control
   Center notifying it that the aircraft has been away from gate for more than 3 hours
   without departing.

 • Constantly monitoring aircraft on the tarmac; in cases of aircraft remaining for
   more than 2 hours, airport staff will contact the appropriate airline manager to
   coordinate the aircraft’s return to a gate. If necessary, airport staff will assist in
   deplaning an aircraft and will provide an escort, buses, and mobile stairs. Finally,
   staff will ensure that airport services (e.g., concessions, security, and ground
   transportation) remain open during an irregular operation.

Airports’ Ongoing Initiatives To Address Long, On-Board Delays: During our
review, two major airport operators put forth initiatives to address long, on-board
delays. The Port Authority of New York and New Jersey set up a task force to find
ways to reduce flight delays at the region’s three main airports. The Port Authority;
which operates JFK, LaGuardia, and Newark Liberty International Airports; leads the
group. The task force includes airline executives and Federal, state, and city
government officials.

The task force convened its first meeting July 18, 2007, with 42 airline executives and
Federal, state, and city government officials attending, including then FAA
Administrator Blakey. The task force met a second time on September 18, and
another meeting is scheduled for November 2007; conference calls are planned to
occur periodically. The task force plans to issue a report by the end of 2007.

The task force is addressing two main areas—technical issues and customer service.
In the technical area, the Port Authority and FAA are working on procedural
improvements, such as more efficient use of the runways at JFK. Also, work is being


                                                                                      15
delegated to the airlines that are looking into ways the airports could be changed to
reduce flight delays. In the customer service area, the focus is on identifying best
methods for getting passengers off aircraft and enhancements for reducing the amount
of time they are kept on aircraft.

Hartsfield-Jackson Atlanta International Airport is moving forward with a plan to cut
gate delays for arriving passengers by busing people from planes directly to
concourses when airline gates are full. The city of Atlanta, which operates the airport,
approved a $2.5 million proposal for 4 new buses that can transport about
80 passengers and their carry-on luggage. The plan also includes sets of mobile
stairways that allow passengers to leave planes and another vehicle to help disabled
passengers. Airlines requesting the service will reimburse the city for the use of the
buses.

It is encouraging to see that some airport operators are becoming more involved in
mitigating long, on-board delays. However, as passenger traffic continues to grow,
airports will need to become more proactive in dealing with long, on-board delays,
especially those airports with limited airfield or gate capacity. Airports will also need
to proactively deal with in-terminal delays when multiple flights are cancelled and
passengers are stranded in the gate areas where terminal capacity could be limited.

ATA Initiative To Address Long, On-Board Delays
On February 22, 2007, ATA announced an initiative for dealing with long, on-board
delays and proposed the following course of action:

 • Each airline will continue to review and update its policies to ensure the safety,
   security, and comfort of customers.

 • Each airline will work with FAA to allow long-delayed flights to return to
   terminals in order to off-load passengers who choose to disembark without losing
   that flight’s position in the departure sequence.

 • ATA will ask the Department to review airline and airport emergency contingency
   plans to ensure that the plans effectively address weather emergencies in a
   coordinated manner and provide passengers with essential needs (i.e., food, water,
   lavatory facilities, and medical services).

 • ATA will ask the Department to promptly convene a meeting of air carrier,
   airport, and FAA representatives to discuss procedures to better respond to
   weather emergencies that result in lengthy flight delays.

While we understand the current pressures that ATA and its member airlines face in
maintaining profitability, we are concerned that the actions proposed merely shift
responsibility from ATA to the Department. We agree that the Department must be


                                                                                      16
an active partner, but ATA’s proposed course of action is not significantly different
than what the airlines agreed to do in response to our 2001 recommendations, such as
“to establish a task force to coordinate and develop contingency plans with local
airports and FAA to deal with lengthy delays.”

FAA’s Expanded Program To Reduce Flight Delays
In preparing for this summer’s peak season, FAA expanded an air traffic program that
reduces flight delays. The Airspace Flow Program, as it is known, gives airlines the
option of either accepting delays for flights scheduled to fly through storms or flying
longer routes to safely maneuver around them.

The Agency successfully launched the program last year at seven locations in the
Northeast. According to FAA, on bad weather days at major airports in the region,
delays fell by 9 percent compared to the year before. Cost savings for the airlines and
the flying public from the program were estimated to be $100 million annually. The
number of Airspace Flow Program locations—chosen for their combination of heavy
traffic and frequent bad weather—was expanded from 7 to 18. The additional
locations will ease delays for passengers flying through the southern and midwestern
United States and for those on transcontinental flights.

Before last year, severe storms often forced FAA to ground flights at affected airports.
This “penalized” flights whose scheduled paths would have taken them around the
storm had they not been grounded with the flights directly affected by the storms.
This program allows FAA to manage traffic fairly and efficiently by identifying only
those flights scheduled to fly through storms and giving them estimated departure
times. Airspace Flow Programs will also be used in conditions not related to weather,
such as severe congestion near major cities.

DOT, FAA, Airlines, and Airports Should Complete Actions
on Outstanding Recommendations To Improve Airline
Customer Service and Minimize Long, On-Board Delays
Given the events of this past winter, DOT should take a more active role in overseeing
customer service issues, and there are actions that it, the airlines, and airports can
undertake immediately to do so. Many of the actions are not new and date back to
recommendations in our 2001 report, which were directed at delay and cancellation
problems—key drivers of customer dissatisfaction with airlines.                 These
recommendations are listed below.

 • Conduct incident investigations involving long, on-board delays. Based on the
   results of our review, the Department’s Office of General Counsel—in
   collaboration with FAA, airlines, and airports—should review incidents involving
   long, on-board ground delays and their causes; identify trends and patterns of such



                                                                                     17
       events; and implement workable solutions for mitigating extraordinary flight
       disruptions.

     • Oversee the airlines’ policies for dealing with long, on-board delays. The
       Office of Aviation Enforcement and Proceedings should ensure that airlines
       comply with their policies governing long, on-board delays, especially in the event
       that health and safety hazards arise from such delays, and advise Congress if the
       airlines retreat from the Commitment provisions or dilute the language in the
       current contracts of carriage.

     • Implement the necessary changes in the airlines’ on-time performance
       reporting to capture all long, on-board delays. Delay statistics (see statistics in
       the table on page 7) do not accurately portray the magnitude of long, on-board
       delays because (1) if a flight taxies out, sits for hours, and then taxies back in and
       is cancelled, the delay is not recorded; and (2) if a flight is diverted to an airport
       other than the destination airport and sits on the tarmac for an extended period of
       time, the flight is not recorded in delay statistics.

       Carriers are not required to report gate departure times when a flight is later
       cancelled. So, there is no record of how long a flight remains at the gate or sits on
       the tarmac before it is cancelled. This is true for flights with lengthy delays at the
       originating airport that are later cancelled. This was the case with some JetBlue
       flights at JFK on February 14, 2007, and at airports where flights were diverted
       and then cancelled, such as some of the American flights diverted to Austin on
       December 29, 2006.

       BTS is looking into whether changes are needed in how the airlines record long,
       on-board delays. BTS should make this a priority and implement the necessary
       changes in the airlines’ on-time performance reporting requirements to capture all
       events resulting in long, on-board delays, such as flight diversions and
       cancellations.

     • Clarify terms in airlines’ contingency plans. Those airlines who have not
       already done so must: (1) define what constitutes an “extended period of time” for
       meeting passengers’ essential needs; (2) set a time limit on delay durations before
       deplaning passengers; and (3) incorporate such policies in their contracts of
       carriage and post them on their Internet sites.

     • Establish specific targets for reducing chronically delayed or cancelled
       flights. 12 In 2001, we recommended that the airlines establish in the Commitment
       and in their Customer Service Plans targets for reducing the number of flights that

12
     We define chronically delayed or cancelled flights as those flights delayed 30 minutes or longer or cancelled at least
     40 percent of the time during a single month.


                                                                                                                       18
 have been chronically delayed (i.e., 30 minutes or longer) or cancelled 40 percent
 or more of the time.

 In response to our recommendation, the airlines stated they were “willing to accept
 the challenge of reducing chronically delayed or cancelled flights, for factors we
 can control, in order to relieve unneeded and unwanted passenger frustration.”
 However, there were no actions identified on how or when the airlines would go
 about establishing targets for reducing the number of flights that have been
 chronically delayed.

• Disclose on-time flight performance. We recommended in our 2001 report that
  the airlines disclose to customers at the time of booking and without being asked
  the prior month’s on-time performance rate for those flights that have been
  delayed (i.e., 30 minutes or longer) or cancelled 40 percent or more of the time.
  Currently, the airlines are required to disclose on-time performance only upon
  request from the customer.
 The ATA airlines disagreed with this recommendation and, as an alternative,
 agreed to make on-time performance data accessible to customers on the airlines’
 Internet sites, on a link to the BTS Internet site, or through toll-free telephone
 reservation systems.

 However, we found in 2006 that only 5 of the 16 airlines we reviewed made
 on-time performance data available on their Internet sites. Given the ease of
 availability of this information to the airlines, we continue to recommend that the
 airlines post on-time flight performance information on their Internet sites and
 make it available through their telephone reservation systems without being
 prompted.

• Resume efforts to self-audit customer service plans. Also, in our 2001 report,
  we recommended, and the ATA airlines agreed, that the airlines establish quality
  assurance and performance measurement systems and conduct internal audits to
  measure compliance with the Commitment provisions and customer service plans.

 These systems and audit procedures will also help DOT to more efficiently review
 the airlines’ compliance with the Commitment provisions and ensure that airlines
 comply with their policies governing long, on-board delays, especially in the event
 that health and safety hazards arise from such delays.

• Reconvene the task force. In response to our 2001 report recommendations, the
  airlines agreed to establish a task force of representatives from airlines, airports,
  and FAA to develop and coordinate contingency plans to deal with lengthy delays,
  such as working with carriers and the airports to share facilities and make gates
  available in an emergency. Although the airlines formed a task force, the effort


                                                                                    19
   never materialized as priorities shifted after September 11, 2001. Now is the time
   for airlines to reconvene the task force and develop and coordinate contingency
   plans with local airports and FAA to deal with lengthy delays.

 • Implement processes for monitoring lengthy delays. Large- and medium-hub
   airport operators should establish and implement a process for monitoring and
   mitigating long, on-board delays that involves contacting the airline to request a
   plan of action after an aircraft has remained on the tarmac for 2 hours. As part of
   the plan, the airport operators need to work with the airlines to ensure that the
   airlines’ deplaning policies are adhered to. Absent any airline policy, the airport
   operators should work with airlines to establish policies for deplaning passengers
   and ensure that these policies are adhered to.

The busy holiday travel season will soon be upon us, and the extent to which delays;
including long, on-board delays and cancellations; will affect passengers in the
remainder of 2007 and beyond will depend upon how DOT, FAA, airlines, and
airports coordinate their efforts to avoid a repeat of the events of this past winter and
current 2007 events.

That concludes my statement. I would be glad to answer any questions that you or
other Members of the subcommittee might have.




                                                                                      20
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
     Testimony Before the Committee on Transportation and Infrastructure,
       Subcommittee on Aviation, United States House of Representatives

   Actions Needed To Improve Airline Customer Service and Minimize Long,
                             On-Board Delays

                               508 Compliant Presentation

Figure 1. Provisions of the Airline Customer Service Commitment

 • Offer the lowest fare available.
 • Notify customers of known delays, cancellations, and diversions.
 • Deliver baggage on time.
 • Support an increase in the baggage liability limit.
 • Allow reservations to be held or cancelled.
 • Provide prompt ticket refunds.
 • Properly accommodate disabled and special-needs passengers.
 • Meet customers’ essential needs during long, on-aircraft delays.
 • Handle “bumped” passengers with fairness and consistency.
 • Disclose travel itinerary, cancellation policies, frequent flyer rules, and aircraft
   configuration.
 • Ensure good customer service from code-share partners.
 • Be more responsive to customer complaints.
Source: Airline Customer Service Commitment, June 1999

Figure 2. Percent of Flights Delayed, Cancelled, or Diverted for Years 2000 to 2007

     Year        Percentage
For year 2000 27.4 percent
For year 2001 22.6 percent
For year 2002 17.9 percent
For year 2003 18.0 percent
For year 2004 21.9 percent
For year 2005 22.6 percent
For year 2006 24.6 percent
For year 2007 27.8 percent
Note: The percentage given for the year 2007 is based on January to July data.
Source: Bureau of Transportation Statistics data
Figure 3. Average Length of Arrival Delays for Years 2000 to 2007

     Year         Minutes
For year 2000 52.5 minutes
For year 2001 49.2 minutes
For year 2002 46.8 minutes
For year 2003 48.9 minutes
For year 2004 51.4 minutes
For year 2005 52.2 minutes
For year 2006 54.0 minutes
For year 2007 56.7 minutes
Note: The minutes of arrival delays given for the year 2007 is based on January to July data.
Source: Bureau of Transportation Statistics data

Table. Number of Flights With Long, On-Board Tarmac Delays of 1 to 5 Hours or
Longer for January Through July of 2006 and 2007

 • In the first 7 months of 2006, there were 33,438 flights with on-board, tarmac delays of
   1 to 2 hours. In the first 7 months of 2007, there were 47,558. This represents a 42.23
   percent change.
 • In the first 7 months of 2006, there were 3,781 flights with on-board, tarmac delays of
   2 to 3 hours. In the first 7 months of 2007, there were 5,213. This represents a 37.87
   percent change.
 • In the first 7 months of 2006, there were 710 flights with on-board, tarmac delays of 3 to
   4 hours. In the first 7 months of 2007, there were 1,025. This represents a 44.37 percent
   change.

 • In the first 7 months of 2006, there were 120 flights with on-board, tarmac delays of 4 to
   5 hours. In the first 7 months of 2007, there were 189. This represents a 57.50 percent
   change.

 • In the first 7 months of 2006, there were 27 flights with on-board, tarmac delays of
   5 hours or longer. In the first 7 months of 2007, there were 44. This represents a 62.96
   percent change.

The total number of flights with long, on-board tarmac delays of 1 to 5 hours or longer for
January through July of 2006 was 38,076. The total number of flights with long, on-board
tarmac delays of 1 to 5 hours or longer for January through July of 2007 was 54,029. This
represents a 41.90 percent increase.

Source: Office of Inspector General analysis based on Bureau of Transportation Statistics
data
Figure 4. Air Travel Consumer Complaints, 2006

             Complaint                             Percentage
Flight Problems                       Accounted for 29 percent of complaints.
Baggage                               Accounted for 22 percent of complaints.
Customer Care                         Accounted for 13 percent of complaints.
Reservations, Ticketing, and Boarding Accounted for 11 percent of complaints
Refunds                               Accounted for 7 percent of complaints.
Disability                            Accounted for 6 percent of complaints.
Others                                Accounted for 12 percent of complaints.
Source: Department of Transportation Air Travel Consumer Reports for 2006
